TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Was Not
                      in Compliance With All Requirements
                     of the Improper Payments Elimination
                     and Recovery Act for Fiscal Year 2012



                                        February 25, 2013

                              Reference Number: 2013-40-024




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                           IPERA requirements. Specifically, the IRS has
WAS NOT IN COMPLIANCE WITH ALL                         not established annual EITC improper payment
REQUIREMENTS OF THE IMPROPER                           reduction targets and has not reported an
PAYMENTS ELIMINATION AND                               improper payment rate of less than 10 percent.
                                                       This is the second consecutive year that the IRS
RECOVERY ACT FOR FISCAL
                                                       is not in compliance with the IPERA.
YEAR 2012
                                                       Although the IRS has implemented a number of
                                                       programs over the years to address EITC
Highlights                                             improper payments, the IRS faces significant
                                                       challenges to becoming compliant with the
Final Report issued on February 25, 2013               IPERA. Specifically, the process the
                                                       Department of the Treasury uses to assess the
Highlights of Reference Number: 2013-40-024            risk of improper payments within its bureaus
to the Internal Revenue Service Chief Financial        does not effectively assess the risk of improper
Officer.                                               payments in tax administration. In addition, the
                                                       ever-changing population of EITC claimants
IMPACT ON TAXPAYERS                                    makes it difficult for the IRS to gain lasting
                                                       improvements in EITC compliance through
The Improper Payments Elimination and
                                                       outreach, education, and enforcement.
Recovery Act (IPERA) of 2010 increased
agency accountability for reducing improper            WHAT TIGTA RECOMMENDED
payments in Federal programs. The only
program the IRS has identified for improper            TIGTA made no recommendations in this report.
payment reporting is the Earned Income Tax
Credit (EITC) Program. The IRS estimates that
21 to 25 percent of EITC payments were issued
improperly in Fiscal Year 2012. The dollar value
of these improper payments was estimated to be
between $11.6 billion and $13.6 billion.
WHY TIGTA DID THE AUDIT
This audit was initiated because the IPERA
requires TIGTA to assess the IRS’s compliance
with improper payment requirements. The
objective of this review was to assess the IRS’s
compliance with the IPERA. The scope of this
review was limited to an assessment of EITC
information the IRS provided for inclusion in the
Department of the Treasury Agency Financial
Report Fiscal Year 2012.
WHAT TIGTA FOUND
The Department of the Treasury identifies the
programs for which the IRS must assess the risk
of improper payments. The IRS compiles the
required information and forwards it to the
Department of the Treasury for inclusion in the
Department’s agency financial report.
TIGTA’s analysis of the information the IRS
provided to the Department of the Treasury
showed that the IRS is not in compliance with all
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 25, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Was Not in
                             Compliance With All Requirements of the Improper Payments
                             Elimination and Recovery Act for Fiscal Year 2012
                             (Audit # 201240045)

 The report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 compliance with the Improper Payments Elimination and Recovery Act (IPERA) of 2010.1 The
 IPERA requires the Treasury Inspector General for Tax Administration to review annually the
 IRS’s compliance with the IPERA reporting requirements. This audit is included in our Fiscal
 Year 2013 Annual Audit Plan and addresses the major management challenge of Fraudulent
 Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report findings. If
 you have any questions, please contact me or Augusta R. Cook, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).




 1
     Pub. L. 111-204.
                              The Internal Revenue Service Was Not in Compliance
                                With All Requirements of the Improper Payments
                               Elimination and Recovery Act for Fiscal Year 2012




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Was Not in Compliance With All
          Improper Payments Elimination and Recovery Act Requirements
          for a Second Consecutive Year ..................................................................... Page 4
          The Internal Revenue Service Faces Significant Challenges to
          Becoming Compliant With the Improper Payments Elimination
          and Recovery Act .......................................................................................... Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ....................................... Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Internal Revenue Service Programs Identified for
          Improper Payment Risk Assessments ........................................................... Page 13
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
        The Internal Revenue Service Was Not in Compliance
          With All Requirements of the Improper Payments
         Elimination and Recovery Act for Fiscal Year 2012




                  Abbreviations

EITC        Earned Income Tax Credit
IPERA       Improper Payments Elimination and Recovery Act
IRS         Internal Revenue Service
NRP         National Research Program
TIGTA       Treasury Inspector General for Tax Administration
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012




                                            Background

Improper payments by Federal Government agencies have been an issue for many years, and
various ways have been put forth to identify, measure, and reduce them. These include laws
specifically addressing improper payments, an executive order, and guidance by certain
oversight agencies, such as the Office of Management and Budget. In addition, agency
Inspectors General serve a role by evaluating agency information related to improper payments.
The Improper Payments Information Act of 20021 requires Federal agencies, including the
Internal Revenue Service (IRS), to estimate the amount of improper payments made each year.
The agencies must report to Congress on the causes of and the steps taken to reduce improper
payments and address whether they have the information systems and other infrastructure needed
to reduce improper payments. Agencies must also describe the steps taken to ensure that
managers are held accountable for reducing improper payments.

The Improper Payments Elimination and Recovery Act of 2010 amends the
Improper Payments Information Act of 2002
On July 22, 2010, President Obama signed into law the Improper Payments Elimination and
Recovery Act (IPERA) of 2010.2 The IPERA amends the Improper Payments Information Act
of 2002 by redefining the definition of “significant improper payments” and strengthening
agency reporting requirements. The IPERA requires the Treasury Inspector General for Tax
Administration (TIGTA) to review annually the IRS’s compliance with the IPERA reporting
requirements. Our evaluation of the IRS’s compliance with the IPERA is used by the
Department of the Treasury Office of Inspector General3 when determining the Department of
the Treasury’s compliance with the IPERA.
The IPERA process to identify IRS programs for improper payment risk assessment
The Department of the Treasury identifies the programs for which the IRS must assess the risk of
improper payments. The IRS used an Improper Payments Elimination and Recovery Risk
Assessment Questionnaire for Fiscal Year4 2012 (the questionnaire) developed by the
Department of the Treasury to assess the level of risk within each of the identified programs.


1
  Pub. L. No. 107-300, 116 Stat. 2350.
2
  Pub. L. 111-204.
3
  The office that conducts independent audits, investigations, and reviews to help the Department of the Treasury
accomplish its mission; improve its programs and operations; promote economy, efficiency, and effectiveness; and
prevent and detect fraud and abuse.
4
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                           Page 1
                        The Internal Revenue Service Was Not in Compliance
                          With All Requirements of the Improper Payments
                         Elimination and Recovery Act for Fiscal Year 2012



The questionnaire assigns a risk score to each program based on the IRS’s response to the
questionnaire. The level of risk for improper payments for the program is then based on risk
score ranges established by the Department of the Treasury. For example, a risk score of 0 to 11
is considered low risk; 12 to 28, medium risk; and 29 and greater, high risk. The IRS is required
to forward the results and documentation for all risk assessments to the Department of the
Treasury. Appendix IV provides a list of the IRS programs the Department of the Treasury
identified for an improper payment risk assessment for Fiscal Year 2012.
For any program identified as having a high risk for improper payments, the IRS must provide
the following information to the Department of the Treasury for inclusion in the Department’s
annual agency financial report:
       The rate and amount of improper payments.
       The root causes of the improper payments.
       Actions taken to address the root causes.
       Annual improper payment reduction targets.
       A discussion of any limitations to the IRS’s ability to reduce improper payments.
During the course of this review, we were provided with documentation showing risk
assessments were performed for each of the programs that the Department of the Treasury
required the IRS to assess. The Earned Income Tax Credit (EITC) has previously been declared
a high-risk program by the Office of Management and Budget; therefore, no risk assessment is
required to be prepared for it. The EITC is currently the only IRS high-risk program and the
only one with information included in the agency financial report.
In January 2013, we reported that the process and tools used to assess IRS programs did not
provide a reliable assessment of the risk of improper payments.5 IRS management agreed with
the recommendations in that report.

Executive Order 13520 also affects improper payment reporting
In addition to the IPERA, Executive Order 13520, signed by President Obama on
November 20, 2009, creates another requirement to address improper payments and increases
Federal agencies’ accountability for reducing them while continuing to ensure that Federal
programs service and provide access to their intended beneficiaries. The order requires Federal
agencies to provide their agency Inspector General detailed information on efforts to identify and
reduce the number of improper payments in Federal programs with the highest dollar value of



5
 TIGTA, Ref. No. 2013-40-015, Improper Payments Elimination and Recovery Act Risk Assessments of Revenue
Programs Are Unreliable (Jan. 2013).
                                                                                                   Page 2
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012



improper payments. TIGTA’s evaluation of this information is published in a separate report,
the most recent being in Calendar Year 2011.6

The IRS uses a statistically valid method to estimate EITC improper payments
based on compliance information
The IRS uses the National Research Program (NRP) as the primary source of data to estimate the
annual EITC improper payment rate. The NRP provides the IRS with compliance information
that is statistically representative of the taxpayer population. Updated estimates of taxpayer
compliance are computed for each tax year.7 The IRS uses each tax year’s NRP results to update
the EITC improper payment rate.
Although the NRP process results in a more current estimate of the accuracy of EITC claims than
previous methods, the estimated improper payment rate for a given fiscal year is not based on
current year data. Because of the time it takes to complete the annual NRP, the IRS’s annual
estimate is based on data that are approximately three years old. For example, EITC improper
payment estimates for Fiscal Year 2012 are based on information from Tax Year 2008 tax
returns that were processed in Calendar Year 2009.
This review was performed at the IRS Headquarters in Washington, D.C., in the Office of
Research, Analysis, and Statistics and in the Office of the Chief Financial Officer during the
period September 2012 through January 2013. The scope of this review was limited to verifying
that required risk assessment questionnaires were completed and that the EITC information the
IRS provided for inclusion in the Department of the Treasury Agency Financial Report Fiscal
Year 2012 was accurate. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
  TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
7
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 3
                         The Internal Revenue Service Was Not in Compliance
                           With All Requirements of the Improper Payments
                          Elimination and Recovery Act for Fiscal Year 2012




                                     Results of Review

The Internal Revenue Service Was Not in Compliance With All
Improper Payments Elimination and Recovery Act Requirements for a
Second Consecutive Year
The IRS did not provide all required IPERA information to the Department of the Treasury for
inclusion in the Department of the Treasury Agency Financial Report Fiscal Year 2012. For the
second consecutive year, the IRS did not publish annual reduction targets or report an improper
payment rate of less than 10 percent for the EITC. Figure 1 provides a summary of our
evaluation of IRS compliance with the IPERA.
                             Figure 1: IRS Compliance With
                  Improper Payment Requirements for the EITC Program

                                                                                                Provided by
                                 IPERA Requirement
                                                                                                  the IRS
Conduct a program-specific risk assessment for each program or activity that                         Yes
conforms with Section 3321 of Title 31 U.S.C.
Publish a programmatic corrective action plan for the EITC.                                          Yes
Publish an improper payment estimate for the EITC.                                                   Yes
Publish annual reduction targets for the EITC and discuss progress toward                             No
meeting those targets.
Report an improper payment rate of less than 10 percent for the EITC.                                 No
Report on efforts to recapture EITC improper payments.                                               Yes
Source: TIGTA’s review of IRS EITC information provided to the Department of the Treasury for inclusion in the
Department of the Treasury Agency Financial Report Fiscal Year 2012 issued on November 15, 2012.

TIGTA’s report on IRS compliance with the IPERA is incorporated into the Department of the
Treasury Office of Inspector General’s annual assessment of the Department of the Treasury’s
compliance with the IPERA. Fiscal Year 2011 was the first year Inspectors General were
required to assess agencies’ compliance with the IPERA. In March 2012, the Treasury Inspector




                                                                                                        Page 4
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012



General reported that the Department of the Treasury was not in compliance with the IPERA,
primarily because of the EITC.8

Noncompliance with IPERA reporting requirements increases the risk that the IRS
will not significantly reduce EITC improper payments
As the following chart illustrates, the IRS has made little improvement in reducing EITC
improper payments since being required to report estimates of these payments to Congress. The
IRS has previously acknowledged that further reductions in the EITC error rate will be difficult
to achieve. Figure 2 presents the IRS’s estimated EITC improper payments for Fiscal Year 2003
through Fiscal Year 2012.
                                Figure 2: EITC Improper Payments
                                   for Fiscal Years 2003 to 2012

                                                                  Minimum                 Maximum
                         Minimum            Maximum               Improper                Improper
                         Improper           Improper              Payments                Payments
                        Payments9           Payments               Dollars                 Dollars
      Fiscal Year       Percentage         Percentage             (Billions)              (Billions)

          2003              25%                30%                    $9.5                   $11.5
          2004              22%                27%                    $8.6                   $10.7
          2005              23%                28%                    $9.6                   $11.4
          2006              23%                28%                    $9.8                   $11.6
          2007              23%                28%                  $10.4                    $12.3
          2008              23%                28%                  $11.1                    $13.1
          2009              23%                28%                  $11.2                    $13.3
          2010              24%                29%                  $15.3                    $18.4
          2011              21%                26%                  $13.7                    $16.7
          2012              21%                25%                  $11.6                    $13.6
          Total                                                    $110.8                    $132.6
     Source: Department of the Treasury Performance and Accountability Reports for Fiscal Year 2003
     through Fiscal Year 2010 and the Fiscal Year 2011 and Fiscal Year 2012 Agency Financial Reports.


8
  Department of the Treasury Office of Inspector General, Ref. No. OIG-12-044, The Department of the Treasury
Was Not in Compliance With the Improper Payments Elimination and Recovery Act for Fiscal Year 2011
(Mar. 2012).
9
  For Fiscal Year 2005 through Fiscal Year 2009, the IRS computed the minimum and maximum improper payment
rates (referred to as the upper and lower bounds) using different sets of assumptions concerning the compliance of
EITC claimants who fail to show up for the NRP audit.
                                                                                                          Page 5
                      The Internal Revenue Service Was Not in Compliance
                        With All Requirements of the Improper Payments
                       Elimination and Recovery Act for Fiscal Year 2012



Although the IRS reported a slightly lower EITC improper payment amount for Fiscal
Year 2012, this decrease cannot necessarily be attributed to a reduction in the amount of EITC
improper payments. A number of factors can cause the improper payment rate and resulting
dollar estimate to fluctuate from year to year. For example, after Fiscal Year 2009, the IRS
changed the way it estimated EITC improper payments.
In Fiscal Year 2010, using data gathered annually through the NRP, the IRS began using a new
statistical methodology for computing the improper payment amount. The annual sample along
with the new methodology allows the IRS to calculate a point estimate for the improper payment
amount with a 3 percent precision and a 90 percent confidence rate as required by the IPERA.
This new methodology accounts for the taxpayers who do not respond to the notification of audit
through the application of sophisticated statistical formulas and techniques rather than the
previous assumptions that were used.
In addition, legislative changes to the EITC and changes in the economy also directly affect the
number and amount of EITC claims filed each year. The estimated improper payment rate and
resulting dollar estimate will increase or decrease as the number of EITC claims received in a
given tax year increases or decreases.

Developing specific EITC improper payment reduction targets continues to be
problematic
Similar to last year, the IRS did not provide the Department of the Treasury or TIGTA with
quantifiable improper payment reduction targets for the EITC as required by the IPERA. IRS
management’s response to TIGTA’s Fiscal Year 2011 IPERA report stated:
       . . . we are continuing to implement our return preparer initiative aimed at
       substantially reducing erroneous EITC payments. As previously noted,
       FY [Fiscal Year] 2011 was the first year of a three-year ramp-up of this
       initiative, and we expect to have a baseline against which we can set
       meaningful reduction targets after the program is fully established by FY 2014.
While beneficial, it is unknown what effect the Return Preparer Initiative will have on overall
EITC improper payments or when these projected benefits will be realized. On
January 18, 2013, the Federal Court enjoined the IRS from enforcing the regulatory requirements
for registered tax return preparers. On January 23, 2013, the IRS filed a motion to suspend the
injunction pending appeal.
IRS management stated that they do not plan to create specific and meaningful EITC improper
payment reduction targets for the immediate future. As a result, the IRS and the Department of
the Treasury will continue to not comply with the IPERA. According to the IPERA, continued
noncompliance will result in additional reporting requirements as well as a review of Department
of the Treasury, and potentially IRS, funding by the Office of Management and Budget.


                                                                                           Page 6
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012



Information provided to the Department of the Treasury was incomplete
Our review also identified two other areas of concern. These two concerns do not materially
affect the IRS’s compliance with the IPERA.
        Information in the Department of the Treasury Agency Financial Report Fiscal
         Year 2012 related to compliance activities was incomplete.
        The IRS’s estimated EITC improper payment rate still does not include EITC
         underpayments.
The Department of the Treasury Agency Financial Report Fiscal Year 2012 contains a table that
lists various IRS activities to address improper payments, such as Examination Closures (audits)
and Document Matching.10 This table omitted the IRS’s estimated Fiscal Year 2013 activities
from the seven-year total. Accordingly, Examination Closures cases were understated by almost
half a million cases and Document Matching cases were understated by almost one million cases.
These omissions were caused by human error when the IRS created the chart information. The
omission of the Fiscal Year 2013 estimates does not affect the IRS’s compliance with the
IPERA.
In addition, the IRS improper payment rate still does not include an estimate of EITC
underpayments. The IPERA states that reported improper payment estimates should include
instances of underpayments, i.e., the recipients received less than they were entitled to receive, as
well as overpayments, i.e., the recipients received more than they were entitled to receive. In
response to our previous report evaluating the IRS’s compliance with Executive Order 13520,11
the IRS agreed to assess the impact of EITC underpayments on the improper payment rate. The
IRS indicated in its Fiscal Year 2012 IPERA reporting that EITC underpayments “do not appear
with sufficient frequency in the statistically valid test data to have a measurable effect on the
estimate.”
Based on materiality, it is reasonable to omit EITC underpayments when computing the Fiscal
Year 2012 improper payment rate. However, the IRS should continue to evaluate the
significance of EITC underpayments annually and ensure that underpayments are included in its
annual estimate of the EITC improper payment rate if warranted.




10
   The IRS’s Automated Underreporter Program matches items reported on an individual’s income tax return to
information supplied to the IRS from outside sources (such as employers, banks, and credit unions) to determine if
the tax return reflected correct amounts.
11
   TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
                                                                                                            Page 7
                        The Internal Revenue Service Was Not in Compliance
                          With All Requirements of the Improper Payments
                         Elimination and Recovery Act for Fiscal Year 2012



The Internal Revenue Service Faces Significant Challenges to
Becoming Compliant With the Improper Payments Elimination and
Recovery Act
The IRS faces significant and unique challenges in trying to become compliant with the IPERA.
In January 2013, TIGTA reported that the process used in Fiscal Year 2011 to determine which
IRS programs have a high risk of improper payments did not effectively measure risk.12 Also,
the ever-changing population of EITC claimants creates challenges for the IRS to administer the
EITC while minimizing improper payments.
The process used to determine program risk can be improved
As explained previously, the starting point for complying with the IPERA is for agencies to
assess the risk for improper payments in their programs. The Department of the Treasury
administers the annual improper payment risk assessment for its bureaus and developed a
questionnaire to be used by all of the bureaus when assessing the risk of improper payments.
The IRS used this questionnaire to review programs and to determine a numeric risk score to
quantify the risk of improper payments in IRS programs for Fiscal Year 2012.
However, we reported in January 2013 that this process does not provide a reliable assessment of
improper payment risk for IRS revenue program funds.13 Programs selected by the Department
of the Treasury for the IRS to evaluate for improper payment risk were defined based on fund
groups rather than by significant broad-based activities. In addition, the questionnaire did not
effectively address risks associated with tax refund payments, and risk assessments were not
performed in compliance with Department of the Treasury guidelines. While IRS management
agreed with our recommendations, the IRS cannot change the risk assessment process or the
design of the questionnaire without the consent of the Department of the Treasury.

Characteristics of the EITC contribute to its improper payment rate
The IPERA requires agencies to achieve an improper payment rate of 10 percent or less for each
of their high-risk programs. However, the IRS faces a significant challenge in achieving an
improper payment rate of 10 percent for the EITC Program.
The IRS has reported an EITC improper payment rate above 20 percent since Fiscal Year 2003.
While the estimated EITC improper payment rate has declined over the years, the estimated
payments made in error have increased from at least $9.5 billion in Fiscal Year 2003 to at least
$11.6 billion in Fiscal Year 2012. The IRS has implemented a number of programs to improve
EITC compliance and reduce improper payments with varying levels of success. These include

12
   TIGTA, Ref. No. 2013-40-015, Improper Payments Elimination and Recovery Act Risk Assessments of Revenue
Programs Are Unreliable (Jan. 2013).
13
   Revenue program funds generally represent specific individual credits or payments.

                                                                                                    Page 8
                            The Internal Revenue Service Was Not in Compliance
                              With All Requirements of the Improper Payments
                             Elimination and Recovery Act for Fiscal Year 2012



compliance efforts such as the EITC recertification program, which focuses on taxpayers who
had the EITC denied in prior years during an audit, and prerefund audits, i.e., those initiated
before the refund is issued. The IRS has also provided extensive outreach related to the credit
and has expanded oversight over paid tax preparers. However, despite these efforts, the annual
EITC improper payment amount has consistently been one of the largest of all Federal programs.
Two primary factors affect the IRS’s ability to make significant reductions in EITC improper
payments:
       1) The population of taxpayers who are eligible to claim the EITC changes each year.
       2) Statutory tax return processing time periods affect the IRS’s ability to verify the accuracy
          of EITC claims before they are paid.
Eligibility for the EITC is based on income and family size. As such, taxpayers’ eligibility for
the EITC changes from year to year as their financial status and family structure change. In
addition, the eligibility requirements and the amount of the EITC available to taxpayers have
also changed a number of times since the EITC was enacted in Calendar Year 1975. As a result,
a portion of the taxpayers who claim the EITC each year are first-time claimants or taxpayers
whose eligibility for the credit is intermittent from year to year. This ever-changing population
of EITC claimants makes it difficult for the IRS to gain lasting improvements in EITC
compliance through outreach, education, and enforcement.
Lastly, statutory requirements limit the IRS’s ability to ensure that EITC claims are valid before
they are paid. Since the EITC is administered through the Internal Revenue Code, it is claimed
by taxpayers during the filing and processing of their tax returns. The Internal Revenue Code
requires the IRS to process tax returns and pay any related tax refunds within 45 days of receipt
of the tax return or the tax return due date, whichever is later.14 Because of this requirement, the
IRS cannot conduct extensive eligibility checks similar to those that occur with other Federal
programs that typically certify eligibility prior to the issuance of payments or benefits.
Despite these significant challenges, the IRS must continue to work with the Department of the
Treasury and other stakeholders to make real progress towards becoming compliant with the
IPERA. Establishing incremental reduction targets that can be used to evaluate the benefit of the
IRS’s compliance and outreach efforts would be a good first step to reducing EITC improper
payments.




14
     Internal Revenue Code Section 6611(e)(1).
                                                                                               Page 9
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s compliance with the IPERA.1 The
IPERA requires TIGTA to review annually the IRS’s compliance with the IPERA reporting
requirements. The scope of this review was limited to an assessment of the information that the
IRS provided for inclusion in the Department of the Treasury Agency Financial Report Fiscal
Year 2012. To accomplish our objective, we:
I.      Determined if the Department of the Treasury Agency Financial Report Fiscal Year 2012
        complied with the IPERA reporting requirements. We compared the information
        contained in the agency financial report to the IPERA reporting requirements outlined in
        the Office of Management and Budget Circular A-123, Management’s Responsibility for
        Internal Control, guidance on improper payment reporting. We also compared the
        information provided by the IRS to the Department of the Treasury with the information
        contained in the agency financial report to ensure that the information was accurately
        reflected in the report.
II.     Evaluated the accuracy and reasonableness of the IRS’s estimate of the EITC improper
        payment rate. We compared information related to EITC overclaim cases provided by
        the IRS to information on the IRS Master File2 to ensure that data used by the IRS to
        compute the EITC overclaim rate were valid. We also evaluated the IRS computations of
        the overall EITC improper payment rate and associated dollar projections to verify they
        were accurate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls in place to ensure that the IRS
met the reporting requirements established in the IPERA. We tested these controls by reviewing
and analyzing relevant documents, data, and calculations related to preparation of IPERA
improper payment estimate information.



1
 Pub. L. No. 107-300, 116 Stat. 2350.
2
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 10
                     The Internal Revenue Service Was Not in Compliance
                       With All Requirements of the Improper Payments
                      Elimination and Recovery Act for Fiscal Year 2012



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Deann L. Baiza, Director
Roy E. Thompson, Audit Manager
Steven D. Stephens, Lead Auditor
Laura Paulsen, Senior Auditor




                                                                                     Page 11
                     The Internal Revenue Service Was Not in Compliance
                       With All Requirements of the Improper Payments
                      Elimination and Recovery Act for Fiscal Year 2012



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Deputy Director, Office of Research, Analysis, and Statistics RAS
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer CFO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                       Page 12
                          The Internal Revenue Service Was Not in Compliance
                            With All Requirements of the Improper Payments
                           Elimination and Recovery Act for Fiscal Year 2012



                                                                                         Appendix IV

          Internal Revenue Service Programs Identified
             for Improper Payment Risk Assessments

The following IRS programs were identified by the Department of the Treasury for improper
payment risk assessments for Fiscal Year 2012.

                                                                                       Level of Risk
    IRS Program                                          Type of Program                Identified
    Affordable Health Care Program                         Administrative                   Low
    Business Systems Modernization                         Administrative                    Low
    Health Insurance Tax Credit                            Administrative                   Low
    Information Systems                                    Administrative                   Low
    Tax Law Enforcement                                    Administrative                   Low
    Taxpayer Services                                      Administrative                   Low
    Adoption Credit                                          Revenue                        Low
    Alternative Minimum Tax Credit Refunds                   Revenue                        Low
    American Opportunity Credit                              Revenue                        Low
    Build America Bonds                                      Revenue                        Low
    Child Tax Credit Payments                                Revenue                        Low
    Consolidated Omnibus Budget Reconciliation               Revenue                        Low
    Act (COBRA) Insurance
    Corporation Refunds – Alternative Minimum                Revenue                        Low
    Tax
    Earned Income Tax Credit Disbursements1                  Revenue                        High
    Grants for Investments in Qualified                      Revenue                         Low
    Therapeutic Projects in Lieu of Tax
    Health Care Credit Payments                              Revenue                        Low
    Home Buyers Credit Refunds                               Revenue                         Low
    Informant Reimbursement                                  Revenue                        Low


1
 The EITC Program has been declared a high-risk program for improper payments by the Office of Management
and Budget; therefore, no formal risk assessment is required for it.
                                                                                                   Page 13
                         The Internal Revenue Service Was Not in Compliance
                           With All Requirements of the Improper Payments
                          Elimination and Recovery Act for Fiscal Year 2012




                                                                       Level of Risk
IRS Program                                          Type of Program    Identified
Making Work Pay Credit                                  Revenue            Low
New Clean Renewable Energy Bonds                        Revenue            Low
Qualified Zone Academy Bonds                            Revenue            Low
Qualified School Construction Bonds                     Revenue            Low
Refund Collection                                       Revenue            Low
Refund Collection – Interest                            Revenue            Low
Small Employer Health Care Tax Credit                   Revenue            Low
Source: IRS Office of the Chief Financial Officer.




                                                                                 Page 14
       The Internal Revenue Service Was Not in Compliance
         With All Requirements of the Improper Payments
        Elimination and Recovery Act for Fiscal Year 2012



                                                   Appendix V

Management’s Response to the Draft Report




                                                            Page 15
